3/17/2021

Visa Credit Card Application: Apply Online | Merchants Bank

Local Community Banking
Located in Minnesota and Wisconsin
(/)
Home (/) ›

Credit Card Application
Visa® Credit Card Disclosures
Please scroll left to view the rest of the table.
Introductory Period Annual Percentage Rate (APR) for
purchases, balance transfers and cash advances

A ﬁxed 0% APR for six months from the date account is open (1)

Annual Percentage Rate (APR) for purchases and
balance transfers after the introductory period

Visa® Classic ScoreCard 9.99%

(2,3)

Visa® Platinum ScoreCard-Merchandise 9.99%
Visa® Platinum ScoreCard-Cash Back 9.99%

(2,3)

(2,3)

Cash Advance APR

14.99% (3)

Method of Computing Balance for Purchases

Average daily balance including new purchases

How to Avoid Paying Interest on Purchases

The account balance is paid in full within 25 days after the statement closing
date (3,4)

Minimum Finance Charge

None (4)

https://www.merchantsbank.com/credit-card

1/5

3/17/2021

Visa Credit Card Application: Apply Online | Merchants Bank

For Credit Card Tips from the Consumer
Financial
learn more about factors to consider when applying for or using a credit card,
Local
CommunityTo
Banking
Protection Bureau
visit the website of the Consumer Financial Protection Bureau at
Located in Minnesota and Wisconsin
http://www.consumerﬁnance.gov/learnmore
(http://www.consumerﬁnance.gov/learnmore)
(/)
FEES
Annual Membership Fee

Visa® Classic & Visa® Platinum ScoreCard-Merchandise: None
Visa® ScoreCard-Cash Back: $30

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

None
$3
1% of the converted transaction amount

Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

$7.80
None
None

Other Fees

Replacement Card Fee: $10 if card is replaced more than once in any 12 month
period
Expedited Card Delivery Fee: $20

These Account Terms are true as of 7/6/20. Terms are subject to change. Should you have any questions regarding changes after printing
date, please contact us.
How We Will Calculate Your Balance: We use a method called “average daily balance”, including new purchases.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
(1) INTRODUCTORY INTEREST RATE (for new purchases, balance transfers and cash advances) — From the account-opening date, the introductory interest rate will be 0% APR FIXED FOR
SIX MONTHS. Thereafter the rate will be the APR disclosed in the above “ACCOUNT TERMS" for the type of Visa credit card you obtain, based on the terms and conditions in the
application. See full details of Account conditions and terms in the Bank Credit Card Agreement (“Agreement”) provided separately from the application and/or credit card at account
opening.
https://www.merchantsbank.com/credit-card

2/5

3/17/2021

Visa Credit Card Application: Apply Online | Merchants Bank

(2) Visa ® Classic ScoreCard, Visa Platinum ScoreCard-Merchandise and Visa Platinum ScoreCard-Cash Back are subject to a FINANCE CHARGE of .83%, which is equal to an APR of
9.99%.
Local Community Banking

inare
Minnesota
and Wisconsin
(3) WHEN INTEREST RATES BEGIN TO ACCRUE. All Located
cash advances
subject to a FINANCE
CHARGE from the date of the cash advance.
(4)
(/) How We Will Calculate Your Balance — Purchases are subject to a ﬁnance charge from the date they are posted to the account; however, no interest is imposed on purchases if the
account balance is paid in full within 25 days after the statement closing date. If you elect not to pay the entire new balance shown on your previous monthly statement within that 25day period, a ﬁnance charge will be imposed on the unpaid average daily balance of such Credit Purchases from the previous statement closing date and on new Credit Purchases from
the date of posting to your account during the current billing cycle, and will continue to accrue until the closing date of the billing cycle preceding the date on which the entire new
balance is paid in full or until the date of payment if more than 25 days from the closing date. The ﬁnance charge for a billing cycle is computed by applying the monthly periodic rate to
the average daily balance of Credit Purchases, which is determined by dividing the sum of the daily balances during the billing cycle by the number of days in the cycle. Each daily
balance of Credit Purchases is determined by adding to the outstanding unpaid balance of Credit Purchases at the beginning of the billing cycle any new Credit Purchases posted to your
account, and subtracting any payments as received or credits as posted to your account, but excluding any unpaid ﬁnance charges.
(5) ScoreCard(SM) Bonus Point Program
Complete ScoreCard Bonus Point Program rules will be sent with your ﬁrst statement. Rewards begin to accumulate after you have received and activated your new card. Points accrued
will expire ﬁve years after they are earned. March 31 is the expiration date for points not redeemed within the previous ﬁve year period. For example, if a purchase is made November
11, 2015, the points will not expire until March 31, 2021.
Changes: We may add, change, or delete any of the terms of your account and the corresponding Credit Card Agreement (including, but not limited to, Annual Percentage Rate and other
signiﬁcant changes) in accordance with the agreement and applicable laws.

Tips for Submitting Your Application
Do not use Internet Explorer when completing the application. Any other browser is recommended.
Make sure to complete all the required ﬁelds (noted by an asterisk).
Please click the Submit button once and wait for a thank you message to appear.
If you do not see a thank you message after clicking submit, your application has not been successfully submitted.
Important Information About Opening an Account
To help the government ﬁght the funding of terrorism and money laundering activities, Federal law requires all ﬁnancial
institutions to obtain, verify and record information that identiﬁes each person who opens an account.
When you open an account, we will ask for your name, address, date of birth, and other information that will allow us to
identify you. We may ask to see your driver's license or other identifying documents. We do not pull a credit report as part
of our deposit account opening process. A credit report will only be pulled if you complete a separate application for a
credit product.
https://www.merchantsbank.com/credit-card

3/5

3/17/2021

Visa Credit Card Application: Apply Online | Merchants Bank

* What state do you currently reside in?

please select

Local Community Banking
Located in Minnesota and Wisconsin

Credit Card applications are accepted from select states (MN, WI, IA). Other program restrictions may apply, please consult your loan ofﬁcer for details.

(/)

* Which bank location do/would you frequent most?

please select
* Do you intend to apply for Individual or Joint credit?
Individual Credit

Joint Credit

Page 1 of 3
CONTINUE

BACK TO TOP

Routing Number 091900193
Main: (800) 944-6285 (tel:18009446285)
Electronic Banking: (866) 496-0522 (tel:18664960522)
Hours & Locations (/ﬁnd-a-branch-or-atm)
Privacy Policy (/privacy-policy)
Website Accessibility (/accessibility-policy)
Terms & Conditions (/terms-and-conditions)
USA Patriot Act (/usa-patriot-act)
Investor Relations (/about/investor-relations)
https://www.merchantsbank.com/credit-card

4/5

3/17/2021

Visa Credit Card Application: Apply Online | Merchants Bank

Contact Us (/about/contact-us)

Local Community Banking
Located in Minnesota(https://www.instagram.com/merchants.bank/)
and Wisconsin
(https://www.facebook.com/MerchantsBank/)

(http://blog.merchantsbank.com/)
(https://www.linkedin.com/company/merchants-bank-na)
(/)
(https://www.youtube.com/user/MerchantsBank1875)
© 2021 Merchants Bank. All rights reserved.
Verified: Mar 17, 2021

https://www.merchantsbank.com/credit-card

5/5

